  October 27, 2003




Financial Management

Defense Hotline Allegation on
the Sale of Tin and the Removal
of Asbestos at the Defense
National Stockpile Center
(D-2004-014)




      Office of the Inspector General
                   of the
          Department of Defense
                                    Constitution of
                                   the United States

    A Regular Statement and Account of the Receipts and Expenditures of all public
    Money shall be published from time to time.
                                                               Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

DFAS                  Defense Finance and Accounting Service
DFAS-GA/CO            Defense Finance and Accounting Service Office of General
                         Counsel
DNSC                  Defense National Stockpile Center
DWAS                  Defense Working Capital Accounting System
FMR                   Financial Management Regulation
GS                    General Schedule
IG DoD                Inspector General of the Department of Defense
SFFAS                 Statement of Federal Financial Accounting Standards
          Office of the Inspector General of the Department of Defense
Report No. D-2004-014                                                   October 27, 2003
   (Project No. D2003LH-0083)

      Defense Hotline Allegation on the Sale of Tin and the Removal
          of Asbestos at the Defense National Stockpile Center

                                Executive Summary
Who Should Read This Report and Why? This report should be read by contracting
officers responsible for the administration and oversight of contractor performance and
other civil service and uniformed officers responsible for collecting Government debts.

Background. The Defense National Stockpile Center, a field activity of the Defense
Logistics Agency, is the national repository of strategic materials that are critical for
national defense to decrease or preclude dependency of the United States on foreign
sources. The Defense National Stockpile Center is authorized by Congress to sell excess
materials in the stockpile each fiscal year. In January 2003, a complaint was made to the
Defense Hotline alleging that in FY 2001, the Defense National Stockpile Center lost
about $14 million on multiple sales contracts for a commodity called tin. The
complainant stated that the Defense National Stockpile Center allowed a contractor to
take huge amounts of tin from Defense National Stockpile Center depots without paying
for it, and shortly thereafter, the contractor filed for bankruptcy. The complainant also
stated that the Government lost about $900,000 on a landfill contract for the removal of
asbestos at the Defense National Stockpile Center that was awarded to a “favorite
contractor,” rather than to the Army Corps of Engineers whose bid was lower than the
awarded contract amount. The complainant stated that the Government lost the funds
“because of irregularities, bad policy authorized by top management, and
procrastination.” We performed this audit in response to the complaint.

Results. We substantiated the allegation on the sale of tin, but we could not substantiate
the allegation on the landfill contract for the removal of asbestos. The Defense National
Stockpile Center’s management of the contracts for the sale of tin mentioned in the
allegation was inadequate. The Defense National Stockpile Center did not enforce the
contract terms. In addition, the Defense National Stockpile Center did not have an
effective debt control management program that aggressively and proactively collected
contractor debts owed to the Government. The contractor was allowed to take delivery
of tin on two separate contracts and was awarded a third contract while it was in default
of the payment terms on the first two contracts. As a result, the Government lost about
$13.5 million on the sale of tin to the contractor (finding A). In addition, the Defense
National Stockpile Center did not comply with the DoD management control plan.
Planned management control reviews were not done. As a result, the Defense National
Stockpile Center could not support its FY 2001 and FY 2002 Annual Statements of
Assurance (finding B). The Director, Defense Logistics Agency needed to provide the
Defense National Stockpile Center with oversight, guidance, and direction. See the
Findings section of the report for the detailed recommendations.

Management Comments. A draft of this report was issued on August 11, 2003. The
Defense Logistics Agency did not provide comments on the draft report. We request that
the Director, Defense Logistics Agency comment on the final report by November 26,
2003.
Table of Contents

Executive Summary                                                         i

Background                                                               1

Objectives                                                               1

Findings
     A. Management of FY 2000 and FY 2001 RMT Metals Limited Contracts
         for the Sale and Removal of Tin                                  2
     B. Compliance With DoD Management Control Program                   12

Appendixes
     A. Scope and Methodology                                            15
         Management Control Program Review                               15
         Prior Coverage                                                  16
     B. Landfill Contract for the Removal of Asbestos                    17
     C. Number of Days Payments Were Overdue Per Contract Terms          18
     D. Defense National Stockpile Center Aged Accounts Receivable       21
     E. Report Distribution                                              22
Background
    The Defense National Stockpile Center (DNSC) was established by the Strategic
    and Critical Materials Stock Piling Act, June 7, 1939, section 98, title 50, United
    State Code (as amended), to serve the national defense interest by acquiring and
    retaining stocks of certain strategic and critical materials and to encourage the
    conservation and development of sources of such materials within the United
    States to decrease and to preclude dependency on foreign sources of supplies of
    such materials. DNSC is also authorized to release for use, for sale, or for other
    disposition excess material contained in the national stockpile. However,
    Congress must enact specific legislation before any material determined to be
    excess to the needs of DoD can be disposed of. In “Strategic and Critical
    Materials Report to the Congress”, January 18, 2002, DNSC reported that in
    FY 2001, it disposed of about $593.8 million of material from the national
    stockpile that included about $26.9 million of a commodity called tin. DNSC did
    not report the amount spent on asbestos removal because it was not required to
    report that amount.

    Defense Hotline Allegation. In January 2003, we received an allegation to the
    Defense Hotline that in FY 2001, DNSC lost $14 million on multiple sales of tin
    to a contractor because of poor contract administration. According to the
    allegation, the contractor was allowed to take huge amounts of tin from various
    DNSC depots without paying for the tin and shortly thereafter, the contractor filed
    for bankruptcy. The complainant also stated that because of procrastination in the
    award of a landfill contract for asbestos removal, the Government lost $900,000
    when DNSC awarded a landfill contract for the removal of asbestos to a “favorite
    contractor” and not to the Army Corps of Engineers whose bid was lower than the
    awarded amount. The complainant also stated that the Government lost the funds
    “because of irregularities, bad policy authorized by top management, and
    procrastination.” We substantiated the allegation on the sale of tin (finding A),
    but we could not substantiate the allegation on the landfill contract for the
    removal of asbestos (Appendix B).


Objectives
    Our overall audit objective was to evaluate DNSC contracting policies and
    procedures for the sale of commodities. Specifically, we reviewed the three
    contracts that were the subject of the Defense Hotline allegation. We also
    reviewed the management control program as it related to the overall objective.
    See Appendix A for a discussion of the scope and methodology, our review of the
    management control program, and prior coverage related to the objectives.




                                         1
           A. Management of FY 2000 and FY 2001
              RMT Metals Limited Contracts for
              the Sale and Removal of Tin
           DNSC management of the FY 2000 and FY 2001 RMT Metals Limited
           (RMT) contracts for the sale and removal of tin was inadequate. DNSC
           contracting officers awarded RMT a third contract when it was in default
           of payment on the two previous contracts. Additionally, DNSC
           contracting officers did not implement DoD financial management
           regulations to protect the Government from financial losses. Those
           conditions occurred because DNSC contracting officials did not
           aggressively and proactively enforce the terms of the contracts with RMT.
           The contracting officials did not access the DNSC accounting systems to
           verify whether RMT had paid for previously released items before
           releasing additional material to the contractor. DNSC also did not have an
           effective debt control management program that aggressively and
           proactively collected contractor debts to the Government. DNSC
           contracting officers did not issue demand letters to RMT for the amounts
           owed to the Government. As a result, the Government lost about
           $13.5 million on the sale of tin to RMT.


RMT Metals Limited
    RMT is based in London, United Kingdom, and had an agent in the United States.
    Before the award of the FY 2000 contracts, RMT had a successful contract
    performance history with DNSC. From FY 1994 through FY 2001, DNSC
    awarded 57 contracts to RMT, valued at $219,317,154. Of the 57 contracts,
    2 were for the sale and removal of lead, 3 were for the sale and removal of nickel,
    and 52 were for the sale and removal of tin. Of the 52 tin contracts, 3 were the
    subject of the Defense Hotline allegation. The actual contract price of tin
    removed on the three contracts was calculated by multiplying a predetermined
    percentage figure plus or minus a premium or discount in the previous month’s
    London Metal Exchange price. Our audit of the three contracts revealed the
    following.

           •   On June 5, 2000, DNSC awarded two 1-year contracts to RMT for the
               sale and removal of tin from DNSC depots. The first contract
               (SP0833-00-S-00233) was for the sale and removal of
               5,511,500 pounds of tin at $2.5125 per pound, an estimated contract
               value of $13,847,644. The second contract (SP0833-00-S-00234) was
               for the sale and removal of 6,613,800 pounds of tin at $2.4881 per
               pound, an estimated contract value of $16,455,796.

           •   On April 25, 2001, DNSC awarded another 1-year contract
               (SP0833-00-S-10129) to RMT for the sale and removal of
               4,739,890 pounds of tin, at about $2.3492 per pound, an estimated
               contract value of $11,134,950.


                                         2
            •   On August 14, 2001, a DNSC internal review officer received an
                e-mail from an employee of a contractor that worked for RMT stating
                that RMT had failed to pay its creditors and had stopped all incoming
                business. DNSC took immediate action to stop further release of
                material from its depots to RMT and informed the RMT agent in the
                United States of DNSC actions.

            •   On August 31, 2001, an administrator was appointed in the United
                Kingdom to oversee RMT affairs. At that time, about $13.5 million of
                the $31.3 million (43.1 percent) of RMT unsecured debt was owed to
                DNSC.

            •   On August 31, 2001, DNSC Director, Directorate of Stockpile
                Contracts notified the court-appointed administrator of RMT of the
                total amount of RMT debt to DNSC.

            •   On November 20, 2001, DNSC Counsel filed a creditor’s statement of
                claim through the Assistant United States Attorney, London, United
                Kingdom.


Criteria
     Federal Accounting Standards. Statement of Federal Financial Accounting
     Standards (SFFAS) No. 3, “Accounting for Inventory and Related Property,”
     October 27, 1993, defines “purchase” as the date title passes to the purchasing
     entity and states that “if a contract between the buyer and the seller is silent
     regarding passage of title, title is assumed to pass upon delivery of goods. The
     cost of stockpile materials shall be removed from stockpile materials and reported
     as an operating expense when issued for use or sale.” SFFAS No. 7, “Accounting
     for Revenue and Other Financing Sources and Concepts for Reconciling
     Budgetary and Financial Accounting,” April 1996, states that “when goods are
     kept in inventory so that they are available to customers when ordered, revenue
     should be recognized when the goods are delivered to the customer.”

     DoD Financial Management Regulation. The DoD Financial Management
     Regulation (FMR), May 1993 and subsequent changes, provides financial
     management regulations and procedures and assigns financial management
     responsibilities within DoD. The FMR is applicable to all DoD Components.

             National Defense Stockpile Transaction Fund. FMR volume 12,
     chapter 22, “National Defense Stockpile Transaction Fund,” September 1996,
     provides policies and procedures for accounting for National Defense Stockpile
     transactions. The policies in this chapter and other volumes of the FMR are
     “mandatory in accounting for, and accomplishing the information and reporting
     requirements applicable to the National Defense Stockpile Transaction Fund.”
     FMR volume 12, chapter 22, section 220309, requires DNSC sales and disposal to
     be billed shortly after the sales agreement is made or as of the scheduled time of
     delivery or pickup of the material. In addition, storage fees are to be charged and
     billed to the purchaser for material not picked up.


                                          3
        Contractor Debt Collection. According to FMR volume 10, chapter 18,
“Contractor Debt Collection,” updated December 2001, DoD policy is to
aggressively collect all Government debts. Previous editions of the FMR
contained the same policies and were applicable prior to the RMT bankruptcy
date. To protect the Government, contracting officers and accounts receivable
staff are to work collectively to identify and correct the causes of indebtedness,
delinquencies, and defaults, and take corrective actions to reduce debts owed to
the Government. DoD Components are required to age their debts and document
their debt collection actions. FMR requires contracting officers or designees to
issue written demand for payment letters to contractors promptly and in terms that
inform the debtor of the consequences for failing to resolve the indebtedness.

        Interest Charges. According to FMR volume 10, chapter 18, amounts
owed to the Government are expected to be paid in accordance with the terms
specified in contracts, agreements, or the notifications of indebtedness. Interest
charges are to be assessed on all late payments whether the debt is to be paid in a
lump sum or by installments. In addition to the interest charges, DoD
Components are required by the FMR to assess penalty charges not to exceed
6 percent per annum on any portion of a debt that is delinquent by 90 days or
more.

        Title to Commodities. FMR volume 4, chapter 18, section 180201,
July 1999, states that “when goods are kept in inventory so that they are available
to customers when ordered, revenue should be recognized when the goods are
issued to the customer.” In accordance with the FMR, “when services are
rendered continuously over time or the right to use an asset extends continuously
over time, revenue should be recognized in proportion to the cost incurred or the
use of the asset, as appropriate”.

        Filing Bankruptcy Proof of Claim. According to FMR volume 10,
chapter 18, the Defense Finance and Accounting Service (DFAS) Assistant
General Counsel, (DFAS-GA/CO) is responsible for filing contractor bankruptcy
proof of claims within DoD. The FMR states that “when either the procurement
contracting officer or the contract administrative office receives information that
bankruptcy proceedings have been initiated, the receiving office shall
immediately notify DFAS-GA/CO.” The FMR also requires DoD Components to
inform the Office of General Counsel of their cognizant agency. The notification
is required “regardless of whether any contracts have fully been performed,
closed, or terminated.” The notification is to be made within 3 workdays of the
receipt of the notice of bankruptcy. If the contracting officer receives the
notification of bankruptcy from the debtor or from DFAS-GA/CO, the contracting
officer is required to prepare and send a report on the bankruptcy to DFAS-
GA/CO and the cognizant legal office, no later than 15 days after the receipt of
the notice. The report is to include the name of the contractor, a list of contracts,
and the amount of the claim against the contractor. The purpose of this
notification is to enable DFAS-GA/CO to prepare a consolidated proof of claim
and to forward the claim to the Department of Justice, Central Intake Facility.




                                      4
Management of RMT Contracts
    DNSC management of the FY 2000 and FY 2001 contracts awarded to RMT for
    the sale and removal of tin was inadequate. DNSC held two contract specialists
    accountable for the mismanagement of these contracts. The two General
    Schedule 13 (GS-13) contract specialists were given written letters of reprimand
    that were not included in their permanent personnel records. According to the
    DNSC position description, a GS-13 contract specialist’s duties include
    performing all aspects of contract administration, monitoring or personally
    administering contracts through all stages of performance, and developing and
    maintaining systems to evaluate and monitor contractual performance in areas
    such as delivery and cost. According to the DNSC position description, the
    supervisory contract specialist, or contracting officer (GS-14), “is responsible for
    directing and coordinating contracting activities related to the acquisition or sales
    of strategic and critical materials required for or excessed from DNSC.” DNSC
    supervisory contract specialists were contracting officers. However, not all
    DNSC contracting officers were supervisory contract specialists. The supervisory
    contracting officers supervise a staff of contract specialists and assistants.
    Contract management is, therefore, the responsibility of both contract specialists
    and contracting officers and not contract specialists alone. Both DNSC
    contracting specialists and contracting officers managed the RMT contracts
    ineffectively. However, DNSC did not hold the contracting officers accountable
    for the mismanagement of the RMT contracts.

    The Director, Directorate of Stockpile Contracts stated that sales solicitations are
    part of DNSC sales contracts. The contracts we reviewed incorporated the
    solicitations as part of the sales contract. The first two contracts were awarded
    under one solicitation. The third contract was awarded under a separate
    solicitation. DNSC negotiated the terms of all three contracts.

    Contracts Terms. DNSC contracting officers and contract specialists did not
    effectively and efficiently enforce the terms of the RMT contracts. RMT did not
    pick up the monthly minimum quantities agreed to in the contracts. RMT made
    partial rather than full payment for items removed from DNSC depots. The
    Director, Directorate of Stockpile Contracts allowed RMT to continue to make
    payments by checks drawn on foreign banks, contrary to the provisions in the
    contracts.

            Removal of Monthly Minimum Quantities. RMT did not pick up the
    minimum quantities they agreed to pick up for each month of the contract period.
    The contracts required RMT to notify the DNSC contracting officer, in writing, of
    the quantity of tin to be picked up each month, with the minimum quantity being
    the contract amount. DNSC called this date the declaration date. Each of the
    three contracts contained a minimum monthly quantity that RMT was required to
    pick up. DNSC did not charge RMT storage fees for pick ups that were under the
    minimum monthly quantity. The Director, Directorate of Stockpile Contracts
    stated that because she expected RMT to remove the total contracted quantities by
    the end of the contract period, DNSC did not bill RMT for the individual months
    of the contract period when the declared minimum quantity was not picked up or



                                          5
when the quantity picked up was less than the contract amount. That explanation
does not comply with the terms of the RMT contracts.

        The solicitations, which were incorporated into the contracts, stated that
storage fees shall be assessed on all materials not removed in accordance with the
contract period. The solicitations also stated that the removal period for the tin
sold shall be one calendar year from the date of contract award. In addition, “the
contractor shall remove no less than the monthly removal minimum and no more
than the removal maximum of the material (as specified in I.3 Anticipated
[Commodity] Removal Schedule) awarded under this contract each calendar
month following contract award until all material purchased under this contract is
removed.” The RMT Anticipated Commodity Removal Schedule indicated the
minimum and maximum quantity to be removed each month during the contract
period. In addition, RMT declared in writing the monthly quantities of tin it
agreed to remove. We do not believe that RMT should have been exempted from
paying storage fees for the months that the declared minimum quantity was not
picked up because storage fees are required by FMR volume 12, chapter 22,
section 220309. The following are examples of when RMT should have been
charged storage fees, but was not.

       •   In October 2000, RMT did not declare the minimum quantity to be
           picked up, as stated in the RMT removal schedule for two contracts.
           DNSC did not bill RMT for storage fees for tin that was not removed,
           as agreed to in the contracts and as required by FMR.

       •   9 of 11 monthly removals on one contract were for less than the
           negotiated minimum quantities. DNSC did not bill RMT storage fees
           on tin that was not removed, as agreed to in the contract and as
           required by FMR.

       •   On one monthly removal for another contract, RMT picked up less
           than the negotiated minimum quantities. DNSC did not bill RMT for
           storage fees on tin that was not removed, as required by the contract
           and by FMR.

        Payment Terms. DNSC contracting officials did not enforce the contract
payment terms. All three of the contracts we reviewed contained payment terms
that DNSC negotiated. At the beginning of each month, DNSC notified RMT of
the unit price of tin for that month. At the end of the month, RMT informed the
contracting officer in writing (the declaration date) of the total “quantity to be
picked up for that month and at that unit price.” The unit price changed from
month-to-month. However, once the unit price was established for quantities
declared for pick up during that month, the unit price did not change, even if the
actual pickup occurred in a different month.

For two of the three contracts, payments were due in full for the tin that was
removed and for storage fees for tin that was not removed, 30 calendar days after
the declaration date for the amount of material removed. On the third contract,
payment was due in full for the monthly tin that was removed and for storage fees
for tin not removed, 15 days after the declaration date for material removed. Each
monthly removal occurred in a series of shipments during the month that DNSC


                                    6
recorded on outbound storage reports. On one contract, RMT removed the items
purchased in 66 shipments over a period of 11 months. On another contract, the
removal was completed in 73 shipments over a period of 10 months. DNSC
stopped shipment on the third contract in the fourth month, after 11 shipments.
RMT made partial payments on 13 of the 25 monthly removals and no payment
on 12 of the 25 monthly removals. See Appendix C for more details. As
previously stated, DNSC did not bill RMT for the months in which the minimum
quantities removed were lower than the negotiated quantity or for the months that
no tin was removed. In addition, DNSC allowed RMT to remove materials
without making payments. In both a telephone conversation on August 17, 2001,
and in a memorandum on August 30, 2001, DNSC informed RMT that no
additional material would be released until delinquent accounts were brought up
to date. DNSC gave that notice after RMT had failed to pay its creditors and had
stopped all incoming business.

        Payments on Foreign Banks. DNSC allowed RMT to make payments
with checks drawn on foreign banks. The contract solicitations required that
RMT make payments in U.S. dollars or by checks drawn on a U.S. bank or a U.S.
branch of an acceptable foreign bank. DNSC accounting officials and contract
specialists told us that they brought the RMT payment practice to the attention of
the Director, Directorate of Stockpile Contracts. The director allowed RMT to
continue with the payment practice. In a June 29, 2001, letter to RMT, DNSC
granted the RMT request to continue with the payment practice because RMT had
relied on this payment practice when it negotiated the three contracts we
reviewed. However, the director also stated that RMT would be required to
comply with the contract payment terms on all future sales contracts.

        Interest Charges. DNSC did not charge RMT the interest charges for
late or partial payments as stated in the contracts. The solicitations included
provisions for interest charges at rates established by the Secretary of the
Treasury if amounts were not paid by the due date. All RMT payments we
reviewed were late. In addition, RMT payments were for the quantities it had
declared to pick up and not for the actual quantities picked up. Had DNSC
monitored the RMT contracts effectively, DNSC could have observed RMT
payment practices and billed RMT for interest charges on the partial and late
payments. See Appendix C for more details.

Release of Materials. DNSC contracting officers released materials to RMT
without checking the DNSC database to ensure that RMT had paid for the
materials they previously picked up. Data on materials released to and payments
made by RMT were maintained in the DNSC local Paradox database. DNSC
Directorate of Operations input the shipment data from the outbound storage
report into the database. The Directorate of Resource Management input payment
data into the database. Supervisory contract specialists approved the release of
materials. The solicitations stated that “no material will be shipped until all
outstanding delinquent charges and payments have been satisfied.” Contracting
officials were required to access the database to ensure that RMT had paid for
previous releases and was not delinquent in its payments before approving the
release of additional materials. The contracting officials we talked to indicated
that they did not access the database to verify RMT payment history before
approving the release of additional materials. As a result, DNSC did not detect


                                     7
    and prevent RMT delinquency, and RMT was able to pick up material without
    making full or partial payments for previously released material.


Financial Management
    Title to Inventory. DNSC passed title of tin to RMT at the time the contracts
    were awarded and not when deliveries were made. DNSC lost title to about
    $13.5 million of tin that RMT had picked up before filing for bankruptcy. DNSC
    officials told us that DNSC passed title to RMT because of a report issued by the
    Inspector General of the Department of Defense (IG DoD). IG DoD Report
    No. 98-166, “Internal Controls and Compliance With Laws and Regulations for
    the FY 1997 National Defense Stockpile Transaction Fund Financial Statements,”
    June 25, 1998, stated that to match revenue and expenses correctly, DNSC should
    recognize revenues and cost of goods sold at the same time. Before the report,
    DNSC recognized revenue when contracts were executed and the cost of goods
    sold when deliveries were made. DNSC was not matching revenues with cost of
    goods in the same accounting period and continued to maintain title to materials
    after contracts were awarded. The intent of the report was for DNSC to correctly
    match revenue and the cost of goods sold. The delivery of tin to RMT was based
    on a delivery schedule that was agreed to during the contract period. Based on
    the instructions in SFFAS 3, SFFAS 7, and FMR, DNSC should have passed title
    to RMT when deliveries were made, not when contracts were executed. DNSC
    has since changed its policy and is not passing title of materials sold to
    contractors at the time contracts are awarded.

    Billing and Collection. DFAS performed DNSC billings. DFAS billing invoices
    to RMT contained payment terms that were different from the RMT contract
    terms and from the FMR. The billing invoices were reasonably timely. FMR
    volume 12, chapter 22, requires stockpile sales and disposal to be billed shortly
    after the sales agreement is made or at the time of scheduled delivery or pickup.
    The payment terms on the billing invoices did not agree with FMR or terms of the
    RMT contracts. For example, the first shipment on the third RMT contract
    occurred from May 3, 2001 through May 8, 2001. The contract terms required
    RMT to make payments 15 calendar days after the declarations date. On that
    shipment, the declaration date set by RMT was June 1, 2001. Based on the
    contract, the due date for the payment of that shipment should have been June 16,
    2001. DFAS billed RMT for this shipment on June 27, 2001. The payment terms
    on the invoice was 30 days from the date of the invoice. All the DFAS billing
    invoices we reviewed included payment terms that were different from the terms
    of the RMT contracts and the FMR.

    Debt Management. DNSC did not have an effective debt control program.
    DNSC contracting officers did not aggressively and proactively collect RMT
    debts to the Government by implementing DoD debt management policies. We
    were not able to obtain a copy of the aged DNSC debts at the time DNSC became
    aware that RMT had filed for bankruptcy. However, when RMT filed for
    bankruptcy, the amount owed per shipment on the first contract we reviewed
    averaged about 208 days past due. Amount owed per shipment on the second
    RMT contract averaged about 224 days past due. See Appendix C for the number


                                        8
    of days payments were past due, per shipment and contract. See Appendix D for
    DNSC aged accounts receivable as of April 11, 2003. We believe that DNSC
    contracting officers should have known that RMT was delinquent in its payments
    and should have taken aggressive actions to collect the debt. RMT payment
    history was available in the DNSC Paradox database. DNSC contracting officers
    did not issue demand letters to RMT for payment of its debts, as required by
    FMR. In addition, because the contracting officers did not initiate the collection
    of contractor debts, they did not document their administrative debt collection
    activities, which is also a requirement of the FMR.

    Transfer of Delinquent Debts. DNSC did not transfer delinquent debts to DFAS
    for collection. According to FMR volume 10, chapter 18, debts that are 180 days
    delinquent are to be transferred to the Department of the Treasury for collection.
    DFAS is responsible for the transfer of DoD debts to the Department of the
    Treasury. Because of the IG DoD Report No. 98-166, DFAS sent a memorandum
    to DNSC on August 10, 1998, stating that it will assume all DNSC delinquent
    accounts receivable responsibilities. According to the memorandum, “A final
    decision from the contracting officer is required prior to issuance of a demand
    letter for indebtedness. All indebtedness letters will be legally insufficient
    without the contracting officer’s final decision, which would prevent additional
    action by the [DFAS] Debt Management Office.” DNSC contracting officers did
    not issue demand letters to RMT. In addition, DNSC was not able to provide any
    documentation or evidence that it had forwarded any of the delinquent debts to
    DFAS for collection. See Appendix C for the number of days that RMT
    payments were delinquent and Appendix D for DNSC aged accounts receivable.


Amount of Claim
    Alleged Amount Lost. We substantiated the Defense Hotline allegation that
    DNSC lost about $13.5 million, and potentially more, on the sale of tin to RMT.
    The amount owed does not include interest charges for late or partial payments
    and does not include storage fees, which is contrary to the agreed-upon terms of
    the three contracts. If DNSC had enforced the terms of the RMT contracts and
    had billed RMT for storage fees for the minimum quantities not picked up and
    interest on partial or late payments, the amount that RMT owed to DNSC would
    have been more than $13.5 million. We did not attempt to determine the amount
    of interest that RMT would have owed. However, on August 1, 2001, 14 days
    before the bankruptcy filing, DFAS billed RMT $43,072 for interest charges on
    one contract for shipments made from February through June 2001. At the time
    DFAS billed RMT for interest charges, RMT was seriously delinquent in its
    payments. DNSC was responsible for computing interest and storage fees on the
    RMT contracts. DNSC did not comply with FMR policies on interest and penalty
    charges. DNSC lost the $13.5 million because of poor contract management.
    The following table shows the amount owed on the three contracts we reviewed.




                                         9
                                 Amount Lost Per Contract

                                       Does not include interest and storage fees
                                 Estimated          Actual
                                 Contract          Contract      Amount          Amount
      Contract                     Value*           Value*       Received        of Claim

      First Contract
      (SP0833-00-S-00233)       $13,847,644       $13,466,586   $ 9,065,285     $ 4,401,301

      Second Contract
      (SP0833-00-S-00234)        16,455,796        16,363,172    11,655,555       4,707,617

      Third Contract
      (SP0833-01-S-10129)        11,134,950         4,390,508               0     4,390,508

       Total                    $41,438,390       $34,220,266   $20,720,840     $13,499,426
      *Contract value is an estimate based on the total weight of tin to be picked up. The
      actual contract value is based on the actual weight of tin picked up.


     Filing Proof of Claim in Bankruptcy Cases. DNSC, not DFAS-GA/CO, filed a
     proof of claim in the RMT bankruptcy case. The amount claimed would not have
     been different if DFAS-GA/CO had filed the claim. DNSC officials stated in an
     e-mail message to us that they had discussed the RMT bankruptcy filing with
     their cognizant agency, Defense Logistics Agency, General Counsel, but said they
     had not notified DFAS-GA/CO. As stated in the FMR, DFAS-GA/CO is
     responsible for preparing a consolidated proof of claim and for forwarding the
     claim to the Department of Justice, Central Intake Facility.


New Contract Initiatives
     DNSC has initiated a new program for the sale of national stockpile materials,
     including tin, and is using a new accounting system. Under the new program, the
     Basic Ordering Agreement, contractors pre-register to participate in the program.
     DNSC establishes a financial exposure limit for each contractor based on the
     financial position of the contractor, past performance, references, and credit
     report. Once contractors reach their financial exposure limit, they are not able to
     participate in future sales until they are satisfactorily performing on existing
     contracts or DNSC increases their financial exposure limit. DNSC is also
     replacing its Paradox database with the Defense Working Capital Accounting
     System (DWAS) that will require contracting officers to review contractor
     performance before awarding new contracts or approving additional releases of
     items on existing contracts. DNSC has also designed a standard “demand for


                                             10
    payment” letter to send to contractors when they are in default of their payment
    terms. In addition, DNSC has decided not to pass title of commodities sold to
    contractors at the time contracts are executed.

    We reviewed two Basic Ordering Agreements. We were unable to obtain policies
    and procedures on how financial exposure limits are calculated. We received the
    DWAS Instruction Overview, April 2003, which is an instructional manual for
    upper-level management. We were unable to obtain any standard operating
    procedures for DWAS. We do not believe that pre-qualifying contractors
    necessarily guarantees contractor performance, and DNSC should not consider
    that practice a substitute for good contract management or performance
    monitoring. The new initiatives by DNSC are improvements over the old system;
    however, the controls for monitoring contractor performance in DWAS also
    existed in the old Paradox database. We do not believe that the new initiatives
    will detect and prevent the loss of Government funds from contractor non-
    performance as long as contracting officials are not enforcing the terms of
    contracts.


Recommendation
    Revised Recommendation. We expanded Recommendation A. to further clarify
    the need to ensure that contracting officers are held accountable for their
    responsibilities.

    A. We recommend that the Director, Defense Logistics Agency provide
    oversight, guidance, and direction to the Administrator, Defense National
    Stockpile Center to ensure that the Administrator, Defense National Stockpile
    Center enforces the terms of all contracts and adheres to DoD financial
    management policies and procedures for contract administration and to ensure
    that contracting officers are held accountable for their responsibilities.




                                        11
            B. Compliance With DoD Management
               Control Program
            DNSC did not comply with DoD Management Control Program. That
            condition occurred because the DNSC Directorate of Resources
            Management and the Directorate of Stockpile Contracts did not perform
            the required management reviews in the DNSC Management Control
            Program. As a result, DNSC failed to identify and correct contractor non-
            performance that resulted in a loss of about $13.5 million to the
            Government. In addition, incorrect assertions were made in the DNSC
            Annual Statements of Assurance for FY 2001 and FY 2002. The FY 2002
            Statement also omitted additional required information of potential
            accounts receivable losses.


Criteria
     DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
     August 28, 1996, requires DoD Components to establish a management control
     program to review, evaluate, and report on the effectiveness of its management
     control program and to take appropriate action to identify and correct ineffective
     controls. DoD Components are required to submit an Annual Statement of
     Assurance based on management’s assessment of the effectiveness of the
     management control program. DoD Instruction 5010.40 also requires that the
     Statement of Assurance be based on the Office of Management and Budget
     memorandum, “Year-End Internal Control Report,” (current edition), FMR, and
     SFFAS. Under SFFAS No.1, “Accounting for Selected Assets and Liabilities,”
     March 30, 1993, “losses on receivables should be recognized when it is more
     likely than not that the receivable will not be totally collected. The phrase more
     likely than not means more than a 50 percent chance of loss occurrence.”


DNSC Management Control Program
     DNSC did not comply with the requirements of the DoD management control
     program. The Directorate of Resources Management and the Directorate of
     Stockpile Contracts did not perform the required management reviews in the
     DNSC management control plan. We reviewed the management control plan as it
     related to the objectives of our audit. DNSC management control plans for FY
     2001 and FY 2002 included plans for test cash collection processes, accounts
     receivable reviews, and periodic reviews of the work of contract specialists for
     compliance with standard operating procedures. The Directorate of Resources
     Management was responsible for the first two reviews and the Directorate of
     Stockpile Contracts was responsible for the third review. The directorates were
     required to provide management review comments to the DNSC internal review
     officer after performing the reviews. Individuals responsible for the reviews told
     us that the reviews were performed as part of their daily functions. Both the
     directorates and the internal review officer were not able to provide us with


                                         12
    documentation on the results of the reviews. We believe that if the required
    reviews had been performed, DNSC would have been able to identify the overdue
    account balances and take timely corrective actions to prevent or minimize the
    amount lost by RMT defaulting on its contracts.


FY 2001 Annual Statement of Assurance
    The FY 2001 Statement of Assurance (FY 2001 Statement) was not reliable and
    contained information that could not be supported because it reported that DNSC
    accounting and administrative controls were evaluated in accordance with the
    guidance provided in DoD directives and instructions on the management control
    program. DoD instructions require the documentation of the reviews to include
    management’s opinion on the effectiveness of the management controls. DNSC
    officials responsible for the management control plan were not able to provide us
    with documentation on the results of their reviews.

    Aged Accounts Receivable. The aged accounts receivable balance reported in
    the FY 2001 Statement could not be supported. According to the FY 2001
    Statement, there were no material weaknesses in the procedures used to process
    cash collections. The Statement also reported that as of September 30, 2000, the
    DNSC aged accounts receivable was $21,601,063. The aged accounts receivable
    balance of that amount as of July 31, 2001, was $5,533,877, and $4,577,725 had
    been forwarded to DFAS-Columbus for debt collection. Based on our review of
    RMT contracts, there were no material weaknesses in the procedures used to
    process cash collections. However, the FY 2001 Statement presentation of the
    aged accounts receivable balance was not accurate. The amount reported as aged
    accounts receivable was $21,601,063, but the total receivable was actually
    $206,596,215. DFAS classified $27,169,533 (13.2 percent) as aged or delinquent,
    not $21,601,063 as reported in the Statement. $5,613,883 of the $27,169,533 was
    2 to 10 years delinquent. On May 26, 2003, DFAS informed us that the last time
    DNSC transferred any account to them for collection was in January 2000.
    In addition to the aged accounts receivable balance as of September 30, 2000, we
    also reviewed the DNSC aged accounts receivable balance as of April 11, 2003.
    As of April 11, 2003, the aged accounts receivable balance was $35,148,470. See
    Appendix D for more details.

    Contract Specialist Work Reviews. DNSC did not perform quarterly reviews of
    the work of the contract specialists as planned. The DNSC FY 2001 management
    control plan included quarterly reviews of the work of the contract specialists.
    However, DNSC could not provide us with the results of the quarterly reviews.
    DNSC provided us with a copy of an undated and unsigned memorandum from a
    procurement analyst to the Director of Stockpile Contracts that discussed the
    results of a random audit of 20 sales contracts from FY 2000 and FY 2001. The
    memorandum concluded, among other things, that there were no indications in the
    contract files that the contracting officers or team leaders performed at least a
    cursory review of documents before issuance. DNSC stated that the
    memorandum was the result of the required review indicated in the management
    control plan. The memorandum did not meet the requirements of DoD Instruction


                                        13
    5010.40. The FY 2001 Statement indicated that standard operating procedures
    and contracting instructions had been developed because of random quarterly
    reviews of sales and acquisition files. The FY 2001 Statement also reported that
    “contract administration is not being adequately performed on contracts
    containing payment terms, resulting in a potential loss of over $10 million.” The
    FY 2001 Statement classified that as a deficiency and the proposed remedy
    included auditing contract payments on a quarterly basis and a review of
    contractor financial responsibilities. The FY 2001 Statement was prepared after
    DNSC became aware of the RMT bankruptcy filing. DNSC held two contract
    specialists accountable for not monitoring the RMT contracts and reprimanded
    them. However, DNSC did not hold the contracting officers accountable for the
    mismanagement of the RMT contracts. We believe that if the reviews had been
    done in accordance with the DNSC management control plan, contracting officers
    could have provided adequate management of the RMT contracts.


FY 2002 Annual Statement of Assurance
    We believe that DNSC FY 2002 Statement of Assurance (FY 2002 Statement)
    could not be supported. Additionally, required information on potential loss of
    accounts receivable was not included in the FY 2002 Statement. We compared
    the FY 2002 Statement to the FY 2002 DNSC management control plan and
    found that required reviews were not done. The management control plan
    requires tests of cash collection processes to ensure accuracy, reviews of account
    receivables to minimize the total amount receivables, and quarterly reviews of the
    work of the contract specialists in order to verify compliance with standard
    operation procedures, which was similar to the FY 2001 DNSC management
    control plan. The FY 2002 Statement indicated that the reviews had been
    conducted and that there were no accounts receivable losses to be reported for the
    year, which was incorrect. In FY 2002, the $13.5 million owed by RMT was in
    litigation. Because the DNSC claim to RMT assets is unsecured and RMT was in
    bankruptcy, DNSC was aware of the potential loss of the $13.5 million owed by
    RMT and according to SFFAS No. 1, should have disclosed that amount in the
    FY 2002 Statement. The FY 2002 Statement also stated that standard operating
    procedures were providing the required controls. However, the DNSC FY 2002
    management control plan required a quarterly review of the work of contract
    specialists, but DNSC could not provide us with the results of such reviews.


Recommendation
    B. We recommend that the Director, Defense Logistics Agency provide
    oversight, guidance, and direction to the Administrator, Defense National
    Stockpile Center to ensure that Defense National Stockpile Center directorates
    implement the Defense National Stockpile Center management control program
    and document the control program reviews in accordance with DoD management
    control program instructions.




                                        14
Appendix A. Scope and Methodology
    We reviewed FY 2000 and FY 2001 contracts between DNSC and RMT for the
    sale and removal of tin. We reviewed the billing invoices that DFAS sent to
    RMT, RMT payment history, and DNSC deposit slips for RMT payments. We
    reviewed a sample of DNSC contracts for the removal of asbestos. We reviewed
    DNSC aged accounts receivable as of September 30, 2000, and April 11, 2003.
    We reviewed the new DNSC contract procedures for the sale of tin and contract
    close out procedures. We also reviewed DNSC management control plans and
    the DNSC Annual Statements of Assurance for FY 2001 and FY 2002. In
    addition, we interviewed current and former DNSC employees.

    We performed this audit from February through August 2003 in accordance with
    generally accepted government auditing standards.

    Use of Computer-Processed Data. We relied on computer-processed data
    provided to us by DNSC from DFAS accounting systems to determine the
    accounts receivable balances. We did not evaluate the general and application
    controls of the systems that produced the accounts receivable balances. Not
    evaluating the controls did not affect the results of the audit.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the DoD contract management high-risk area.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of management controls over contract administration and the processing
    of contractor payments. Specifically, we reviewed controls over the contractor
    selection process, the release of materials to contractors, the input of released
    materials into the DNSC accounting systems, and contract administration for the
    sale of tin. We reviewed the controls relating to the processing and collection of
    payments drawn on foreign banks. We also reviewed the adequacy of
    management’s self-evaluation of those controls and the resulting Annual
    Statements of Assurance for FY 2001 and FY 2002.

    Adequacy of Management Controls. We identified material management
    control weaknesses for DNSC, as defined by DoD Instruction 5010.40. DNSC
    management control plans for conducting management control reviews were not
    adequate to ensure that the reviews were actually being performed and that the
    DNSC Annual Statements of Assurance for FY 2001 and FY 2002 were


                                        15
      supported by accurate and verifiable information. Recommendation B., if
      implemented, will correct the identified weaknesses. A copy of this report will be
      provided to the senior official responsible for management controls at the Defense
      Logistics Agency.

      Adequacy of Management’s Self-Evaluation. DNSC officials identified
      contract administration and accounts receivable reviews as assessable units but
      did not perform the evaluations. DNSC officials could not provide us with any
      documentation that management reviews on contract administration or reviews of
      aged accounts receivables had been conducted.


Prior Coverage
      During the last 5 years, the General Accounting Office (GAO) and the IG DoD
      have issued three reports discussing the National Defense Stockpile Center.
      Unrestricted GAO reports can be accessed over the Internet at
      http://www.gao.gov. Unrestricted IG DoD reports can be accessed at
      http://www.dodig.osd.mil/audit/reports.

GAO
      GAO-01-17, “National Defense Stockpile-Improved Financial Plan Needed to
      Enhance Decision-Making,” January 26, 2001

IG DoD
      IG DoD Report No. 99-044, “Strategic and Critical Materials in the Defense
      National Stockpile,” December 3, 1998

      IG DoD Report No. 98-166, “Internal Controls and Compliance With Laws and
      Regulations for the FY 1997 National Defense Stockpile Transaction Fund
      Financial Statements,” June 25, 1998




                                          16
Appendix B. Landfill Contract for the Removal of
            Asbestos
    The Allegation. The Government lost about $900,000 on a landfill contract for
    the removal of asbestos at the Defense National Stockpile Center that was
    awarded to a “favorite contractor,” rather than to the Army Corps of Engineers
    whose bid was lower than the awarded contract amount. The Government lost the
    funds “because of irregularities, bad policy authorized by top management, and
    procrastination.”

    Review Results. We were unable to substantiate the allegation that DNSC lost
    $900,000 because of procrastination, irregulaties, and bad management decisions
    in the award of a landfill contract for asbestos removal. The Director, Directorate
    of Stockpile Contracts informed us that DNSC received an unsolicited proposal
    from Pine Bluff Arsenal, and not from the Army Corps of Engineers, for the
    removal of asbestos from the base. The director was not able to provide us with a
    copy of the proposal. The director indicated that even if Pine Bluff Arsenal’s
    proposal had been lower than the awarded contract, Pine Bluff Arsenal would not
    have been awarded the contract because the asbestos removal contract was a
    “small business set aside contract” for small and disadvantage businesses.
    Additionally, DNSC considers asbestos removal as a service contract, and the
    Army Corps of Engineers cannot bid on a service contract. We contacted
    personnel at Pine Bluff Arsenal, but they were also unable to provide us with the
    copy of their proposal for the project. The official at Pine Bluff Arsenal indicated
    that she was aware of the proposal, but because of personnel changes and the
    passage of time, Pine Bluff Arsenal could not locate and provide us a copy of the
    proposal.




                                         17
        Appendix C. Number of Days Payments Were
                    Overdue Per Contract Terms

                                         Table C-1. Contract One
                                           SP0833-00-S-00233

                                                             Date                                Number of
                            Payment                         DNSC       Number                      Days
                            Due Date                       Received    of Days                    Overdue
Pickup        Amount          Per           Amount           Last      Payment                      as of
  Per         Due On        Contract        Paid by        Payment       Was      Balance        8/15/2001
Contract       Pickup        Terms           RMT          From RMT     Overdue      Due         (Bankruptcy)

    1        $ 1,679,547    07/31/2000    $1,650,143      09/25/2000     56       $ 29,404          380

    2            568,241    08/30/2000       557,764      11/14/2000     76         10,477          350

    3          1,119,524    10/02/2000      1,098,993     12/04/2000     63         20,531          317

    4          2,549,611    10/30/2000      2,509,937     02/16/2001    109         39,674          289

   5*                   0       n/a                   0      n/a         n/a                0       n/a

    6          1,107,308    01/02/2001      1,086,868     05/17/2001    135         20,440          225

    7          1,105,098    02/01/2001      1,084,633     05/18/2001    106         20,465          196

    8          1,098,859    03/02/2001      1,076,947     07/02/2001    122         21,912          167

    9          1,068,202    03/30/2001                0      n/a         n/a      1,068,202         138

   10          1,073,196    04/29/2001                0      n/a         n/a      1,073,196         108

   11          1,058,565    05/30/2001                0      n/a         n/a      1,058,565         77

   12          1,038,435    06/30/2001                0      n/a         n/a      1,038,435         46

   Total    $13,466,586                   $9,065,285                             $4,401,301

*RMT did not pick up any material as agreed to in the contract.




                                                            18
                                         Table C-2. Contract Two
                                           SP0833-00-S-00234

                                                             Date                                Number of
                            Payment                         DNSC       Number                      Days
                            Due Date                       Received    of Days                    Overdue
Pickup        Amount          Per           Amount           Last      Payment                      as of
  Per         Due On        Contract        Paid by        Payment       Was      Balance        8/15/2001
Contract       Pickup        Terms           RMT          From RMT     Overdue      Due         (Bankruptcy)

    1       $ 1,995,678     07/31/2000    $ 1,960,330     09/20/2000     51       $ 35,348          380

    2          1,125,171    08/30/2000       1,105,608    11/09/2000     71         19,563          350

    3          2,161,096    10/02/2000       2,118,676    12/12/2000     71         42,420          317

    4          3,741,205    10/30/2000       3,676,611    03/26/2001    147         64,594          289

   5*                   0       n/a                   0        n/a       n/a                0       n/a

    6          1,424,762    01/02/2001       1,398,598    04/24/2001    112         26,164          225

    7          1,410,949    02/01/2001       1,395,732    06/05/2001    124         15,217          196

    8          1,415,920    03/02/2001                0        n/a       n/a      1,415,920         167

    9          1,391,833    03/30/2001                0        n/a       n/a      1,391,833         138

   10          1,381,346    04/29/2001                0        n/a       n/a      1,381,346         108

   11            315,212    05/30/2001                0        n/a       n/a       315,212          77

 Total      $16,363,172                   $11,655,555                            $4,707,617

*RMT did not pick up any material as agreed to in the contract.




                                                          19
                                  Table C-3 Contract Three
                                     SP0833-00-S-10129

                                                    Date
                                                   DNSC                                 Number of
                         Payment                  Received    Number                      Days
                         Due Date                   Last      of Days                    Overdue
Pickup       Amount        Per         Amount     Payment     Payment                      as of
  Per        Due On      Contract      Paid by     From         Was        Balance      8/15/2001
Contract      Pickup      Terms         RMT         RMT       Overdue        Due       (Bankruptcy)

   1       $1,456,090    06/18/2001          $0   no payment received     $1,456,090       58

   2         1,031,068   07/17/2001           0   no payment received      1,031,068       29

   3          805,755    08/15/2001           0   no payment received        805,755        0

   4         1,097,595       *                0   no payment received      1,097,595        0

 Total     $4,390,508                        $0                           $4,390,508

*Declarations were made at the end of the month. DNSC stopped shipment during the month.




                                                     20
Appendix D. Defense National Stockpile Center
            Aged Accounts Receivable

                        Aged Accounts Receivable
                           as of April 11, 2003

      Age of Accounts                             Percent of
         Receivable       Total Receivable     Total Receivable

       Under 30 days            $ 9,644,262          27.4
        31 – 60 days                 171,550           0.5

        61 – 90 days                  24,051          0.1

       91 – 180 days             1,319,449            3.8

       181 – 360 days            2,904,096            8.3

       Over 360 days           $21,085,062           60.0

           Total               $35,148,470          100*

      * Difference due to rounding




                                     21
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Defense Procurement and Acquisition Policy

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Unified Command
Inspector General, U.S. Joint Forces Command

Other Defense Organizations
Director, Defense Finance and Accounting Service
Director, Defense Logistics Agency
   Administrator, Defense National Stockpile Center

Non-Defense Federal Organization
Office of Management and Budget




                                          22
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        23
Team Members
The Readiness and Logistics Support Directorate, Office of the Assistant
Inspector General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Shelton R. Young
Kimberley A. Caprio
Dennis E. Payne
Albert L. Putnam
Henry Y. Adu
Gregory S. Fulford
Lieutenant Colonel Linda K. Daniels, United States Army
Susann L. Cobb
